U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
       Audit Report



       Farm Service Agency
         Recapture Under
  Shared Appreciation Agreements




              Report No.
              03601-37-Te
              AUGUST 2000
                     UNITED STATES DEPARTMENT OF AGRICULTURE

                                      OFFICE OF INSPECTOR GENERAL

                                          Washington D.C. 20250




DATE:         August 7, 2000

REPLY TO
ATTN OF:      03601-37-Te

SUBJECT:      Recapture Under Shared Appreciation Agreements

TO:           Keith Kelly
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


We have completed an audit survey of Farm Service Agency’s (FSA) recapture under shared
appreciation agreements (SAA). We found that shared appreciation amounts due upon settlement of
SAA’s or the sale of real estate were computed correctly and being collected. However, the survey did
find that the computer database for SAA’s contained erroneous information.

BACKGROUND

SAA’s were initiated in fiscal year (FY) 1989 as an exhibit to 7 CFR 1951, subpart S, in accordance
with the Agricultural Credit Act of 1987. SAA’s allow the FSA to recapture a portion of the Government
debt written down for farm program loans. As of March 7, 2000, the SAA database included over
9,200 SAA’s for debt writedowns of real estate totaling $1.2 billion.

Regulations for Primary Loan Service Programs are found in FmHA Instruction 1951-S, dated
March 14, 1997. Paragraph 1951.914(c)(3) states that shared appreciation will be due if there is a
positive difference between the market value of the security property at the time of calculation upon
expiration and the market value of the security property as of the date the SAA was signed. The
maximum appreciation requested is not to be more than the total amount written down. The amount of
shared appreciation will be 75 percent within 4 years of the SAA or 50 percent after 4 years from the
date of the SAA, including when the SAA expires at the end of the 10-year period.
Paragraph 1951.914(h) states that borrowers whose SAA’s mature prior to December 31, 2000, may
request partial or complete suspension of the shared appreciation recapture repayment annually up to
three times.

OBJECTIVES

Our objectives were to evaluate FSA’s servicing of SAA’s and to determine whether actions taken on
SAA’s were proper when agreements expired, real estate security sold or conveyed, loans were repaid
or accelerated, or borrowers ceased farming.
Keith Kelly                                                                                             2


SCOPE AND METHODOLOGY

Policies and procedures for servicing SAA’s were reviewed at the FSA national office and Texas State
office. We judgmentally selected Texas for review based on the large volume of reported SAA activity
(about 6 percent of the Nation) shown on the FSA Farm Loan Programs Monthly Management Report
for February 1999. We judgmentally selected six county offices in Texas (Childress, Hamilton, Marlin,
Paducah, Stephenville, and Vernon) based on SAA activity and discussions with State office officials
and reviewed the case files for borrowers with SAA’s. Borrowers with expired agreements, payments
of recapture of appreciation due, and large dollars subject to recapture were judgmentally selected for
review. We reviewed the actions taken by the six county office staffs for the 19 SAA’s that expired or
for which the real estate had been sold.

In addition, we obtained a copy of the FSA SAA computer database as of March 7, 2000, and
generated reports for review using FOCUS computer software. We reviewed nationwide data by State
and compared beginning and ending market values, writedown amounts, and shared appreciation due
and paid. We judgmentally selected Arkansas, Oklahoma, and Texas for further review based on the
large amount of SAA activity in these Southwestern States. The database for these 3 States showed
total SAA’s of 1,316 (14 percent of the 9,260 SAA’s) and that 429 (13 percent of the 3,283) of these
SAA’s were settled cases involving real estate loan writedowns. Of these 429 settled SAA’s, we
reviewed the 258 SAA’s that were settled with appreciation and computed the amount of shared
appreciation due. We contacted the respective State and county offices via telephone to discuss any
discrepancies noted and to gather additional information. We also contacted St. Louis Finance Office
officials regarding the database information. We performed this review during the period October 1999
through March 2000.

The survey included reviews of administrative and financial records and regulations, policies, and
procedures that apply to SAA’s. Administrative records were reviewed and interviews conducted to
satisfy the survey objectives. We verified the market values used in computing recapture to the
independent appraisals received for both the market values at the time the SAA was executed and at
the time of sale. We accepted the market values reflected in the appraisals.

The March 7, 2000, database also showed that 5,977 SAA’s on real estate writedowns totaling
$797.6 million had not been settled (i.e., active SAA’s). The Finance Office notifies the applicable
county office in advance when SAA’s will expire, and the county office staff initiates action to notify the
borrowers, obtain real estate appraisals, and determine the amounts of any recapture owed. We did
not evaluate the database information regarding these unsettled SAA’s.

This audit survey was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, the audit included such tests of program and
accounting records as considered necessary to meet the audit objectives.

FINDINGS AND RECOMMENDATIONS

1. Shared Appreciation Database Contains Erroneous Information

We found that FSA’s actions taken on SAA’s were proper when agreements expired, real estate
security sold, loans repaid, or borrowers ceased farming. However, we noted that the FSA shared
appreciation database did not accurately reflect shared appreciation data. The database included
Keith Kelly                                                                                             3


chattel-only writedowns, was not designed to handle partial sales of security property, did not track
suspended SAA’s, and did not have sufficient edit checks in place to ensure data accuracy. As a
result, the database contained errors that resulted in inaccurate management reports and could result
in inaccurate recapture amounts.

Information provided by FSA showed about 11,900 SAA’s had been executed on debt writedowns of
over $1.7 billion, and that approximately 6,500 of these agreements were currently in effect. However,
our analysis of the SAA database revealed that as of March 7, 2000, there were 9,260 SAA’s on real
estate debt writedowns totaling $1.2 billion. This difference of over 2,600 agreements was primarily a
result of including writedowns for non-real estate loans (chattel) in the SAA database and in the
management reports generated from the database. SAA’s do not apply to non-real estate loans.
Therefore, any management information obtained from the SAA database would likely be inaccurate
and misleading. Other problems with the database are identified below.

As of March 7, 2000, the SAA database showed that 3,283 SAA’s had been settled on real estate
writedowns totaling $432.4 million with recapture paid of $48.8 million. Of the settled SAA’s, 1,656
showed no appreciation and 1,627 showed the farms had appreciated in value. Of the 1,656 SAA’s
showing no appreciation, 272 SAA’s showed recapture amounts totaling over $5 million; therefore,
these 272 SAA’s contained incorrect data because of no data entry and/or incorrect data entry for the
market values. Of the 1,627 SAA’s where the real estate appreciated, the database showed
1,216 farms had been sold (includes 57 SAA’s shown as sold but without a settlement code) and
468 farms had appreciated in value and had not been sold (i.e., farms still active).

We computed the amount of shared appreciation due for the 258 SAA’s reviewed in Arkansas,
Oklahoma, and Texas. Of the 258 settled SAA’s reviewed, we noted 29 discrepancies (instances
where we computed different amounts of appreciation due than those shown in the report or were
unable to compute the appreciation due because one of the market values was shown as zero) in the
database information for these States that required additional explanation (11 in Arkansas, 11 in
Oklahoma, and 7 in Texas). We contacted the applicable FSA State and county office staffs to obtain
explanations for these 29 discrepancies and found the following.

•   Fourteen data entry errors. For example, one borrower’s ending market value was recorded
    as $48,000,000 rather than $48,000; the ending market value for another borrower showed
    zero because the market value was not entered into the system; and incorrect amounts were
    entered for other SAA’s.
•   Four partial sales. The database is not designed to properly handle partial sales of real estate.
    For example, the database showed one borrower in Oklahoma with a beginning market value
    of $196,210 and an ending market value and amount of appreciation due and paid of $28,233.
    Discussions with the county office staff revealed that a partial sale occurred in which the
    beginning and ending market value of the property sold was $129,000 and $136,252,
    respectively. The actual appreciation due (and paid) was $5,439. Therefore, the SAA
    database was incorrect.
•   Three net recovery buyouts. Net recovery buyouts cancel the SAA.
•   One voluntary conveyance. Voluntary conveyances cancel the SAA.
•   One debt settlement. Debt settlements cancel the SAA.
•   One second lien. One borrower’s loan had the Federal Land Bank as first lienholder and FSA
    as second lienholder. The database showed the property was sold, had appreciated in value,
    and no appreciation collected.
Keith Kelly                                                                                         4


•   Two misapplications of funds. FSA applied the funds to the borrower’s debt before applying
    the funds to the SAA as required.
•   Three discrepancies were not resolved because the borrower files were not available.

Three of the above 29 discrepancies affected SAA dollars. Payments for shared appreciation and
loans made for two borrowers were incorrect because the county office staff did not apply sales
proceeds to the SAA before applying the proceeds to the debt. FmHA Instruction 1951-S,
paragraph 1951.914(f), requires that proceeds collected from the sale of security property be applied
first to any shared appreciation due and the balance to the outstanding loans. All proceeds were
applied to the loan of one borrower and nothing was applied to the SAA. In the second case, sale
proceeds were applied to the loan, and the remaining proceeds were applied to the SAA. As a result,
loan balances were improperly reduced and shared appreciation amounts were understated $9,726 for
these two borrowers. The database for a third borrower showed that the borrower paid shared
appreciation of $2,300 even though the borrower actually paid $10,100. This occurred due to an input
error by the county office staff. As a result, shared appreciation shown as paid for the borrower was
understated $7,800. Thus, the balance of shared appreciation collections was understated a total of
$17,526 for these three borrowers.

Based on the above (non-real estate loans included in the SAA database, SAA’s showing no
appreciation also showing recapture amounts, and data entry errors), the database contained
significant erroneous data that could affect management information. The database would be more
accurate by making system changes and including edit checks to reduce the number of data entry
errors.

Also, suspended SAA’s are not tracked within the SAA database. When a borrower’s shared
appreciation due is approved for suspension by the county office, the suspension information is
forwarded to the Finance Office Loan Operations Division in St. Louis, Missouri. FSA National Office
and Finance Office officials stated that SAA suspension agreements are recorded and tracked
manually at the Finance Office; i.e., suspended SAA’s are not identified as such in the database. As of
May 1, 2000, there were about 1,023 suspended SAA’s totaling about $45.5 million per the FSA
Finance Office. The SAA database should have the capability to identify and monitor suspended
SAA’s.

Recommendation No. 1

Make system changes to the shared appreciation database to remove chattel-only debt writedowns
from the SAA database, allow for proper input of partial sales, and capture and track borrowers with
suspensions. Also, include edit checks which require entries greater than zero in the beginning and
ending market values for settled SAA’s and generate an exception report when the ratio of these two
values is improbable (e.g., $48,000 vs. $48,000,000).
Keith Kelly                                                                                             5


Agency Response

The Deputy Administrator for Farm Programs’ July 17, 2000, written response to the draft report, a
copy of which is included as attachment A to this memorandum, stated that a Request for Automation
had been submitted to record suspended SAA’s in the Program Loan Accounting System (PLAS).
Suspended SAA’s will be monitored through a database spreadsheet until the revision is fully
implemented. In addition, the Deputy Administrator stated that by June 30, 2001, the Finance Office
would coordinate with the Farm Credit Applications Division to remove chattel-only debt writedowns
from the PLAS. The Deputy Administrator also stated that the Loan Operations Division is reviewing
the issue of allowing proper input of partial sales and including edit checks to prevent data entry errors.
 The PLAS changes to implement these changes will be documented and provided to the Office of the
Chief Financial Officer (OCFO).

OIG Position

We accept FSA’s management decision for Recommendation No. 1.

Recommendation No. 2

Remind all State and county office staffs that net sale proceeds are to be applied first to the SAA and
then to the outstanding debt.

Agency Response

The Deputy Administrator’s written response to the draft report stated that Notice FLP-139, Applying
Proceeds on Accounts With Shared Appreciation, dated July 1, 2000, reminded all State and county
office staffs that net sale proceeds are to be applied first to the SAA and then to the outstanding debt.

OIG Position
We accept FSA’s management decision for Recommendation No. 2.

Please follow your internal agency procedures in forwarding final action correspondence to OCFO.




s/ Richard D. Long
for
JAMES R. EBBITT
Assistant Inspector General
   for Audit
ATTACHMENT 1 – FSA’s WRITTEN RESPONSE TO THE DRAFT REPORT
ATTACHMENT 1 – FSA’s WRITTEN RESPONSE TO THE DRAFT REPORT
